Report No. DODIG-2012-046        January 30, 2012




 Performance and Reporting Controls Over American
   Recovery and Reinvestment Act Projects at Fort
  Wainwright, Alaska, and Fort Huachuca, Arizona,
             Were Generally Effective
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Inspector General
                      Office of the Deputy Inspector General for Auditing
                      Attn: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ANC                           Alaska Native Corporation
COR                           Contracting Officer’s Representative
DPAP                          Defense Procurement and Acquisition Policy
FAR                           Federal Acquisition Regulation
FPDS                          Federal Procurement Data System
FSRM                          Facilities Sustainment, Restoration, and Modernization
NAICS                         North American Industry Classification System
OMB                           Office of Management and Budget
ORCA                          Online Representations and Certifications Application
SBA                           Small Business Administration
USACE                         U.S. Army Corps of Engineers
                               INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                              4800 MARK CENTER DRIVE
                           ALEXANDRIA, VIRGINIA 22350-1500




                                                                          January 30, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)!
                  CHIEF FINANCIAL OFFICER .
               AU DlTOR GENERAL, DEPARTMENT Of TI-IE ARMY
     ,
SUBJECT: Performance and Reporting Controls Over American Recovery and
         Reinvestment Act Projects at Fort Wainwright, Alaska, and Fort Hnachnca,
         Arizona, Were Generally Effective (Repmi No. DODIG-20l 2-046)

We are providing this repmi for review and comment. Fort Wainwright and Fort
Huachuca contractor performance and repmiing controls were generally effective to
ensure the 11 projects, valued at.$14.8 million , were properly executed.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We
received comments from the Commander, U.S. Army Installation Management
Command too late to be included in the final report. However, those comments were
consistent with informal comments previously received from the Army Materiel
Command. Based on the Army comments, we redirected Reconnllendations A and B to
the Executive Director, Army Conh·acting C0111l11and. Please provide comments by
February 29, 2012.

If possible, send a Microsoft Word (.doc) and portable document format (.pdf) file
containing your C0111111ents to audacm@dodig .mil. Copies of your comments must have
the actual signature ofthe authorizing official for your organization. We are unable to
accept the /Signed/ symbol in place ofthe actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).

We appreciate the cOUliesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077). If you desire, we will provide a formal briefing on the
results .


                                           4fA       tt, ffh.. JI/
                                       r   b'ct:c;ueline J!.'«i~;carver
                                      - /,'   Assistant Inspector General
                                              Acquisition and Contract Management
THIS PAGE INTENTIONALLY LEFT BLANK
Report No. DODIG-2012- 046 (Project No. D2011-D000AB-0125.000)                     January 30, 2012


               Results in Brief: Performance and Reporting
               Controls Over American Recovery and
               Reinvestment Act Projects at Fort
               Wainwright, Alaska, and Fort Huachuca,
               Arizona, Were Generally Effective
                                                        contracts, as required by the Federal Acquisition
What We Did                                             Regulation. Fort Wainwright contracting
Our objective was to evaluate the effectiveness         officials did not ensure ANC contractors
of Government controls over contractor                  performed the requisite amount of work because
performance and reporting on selected                   they were unaware of the requirement to track
American Recovery and Reinvestment Act                  the percentage of work performed by ANC
projects, including contracts awarded to                prime contractors and subcontractors. As a
qualified small businesses. We reviewed                 result, there was no assurance that Fort
11 projects valued at $14.8 million. As of              Wainwright ANCs passed the benefits of their
August 26, 2011, 9 of the 11 projects had been          contracts to an Alaska Native workforce.
completed.
                                                        Recommendations
What We Found                                           We recommend that the Executive Director,
Fort Wainwright and Fort Huachuca controls              Army Contracting Command, direct contracting
over contractor performance were generally              officials at Forts Wainwright and Huachuca to
effective and properly executed for the 11              fully implement OMB Memorandum M-10-34
selected Facilities Sustainment, Restoration, and       and the associated April 20, 2011, Defense
Modernization services projects. In addition,           Procurement and Acquisition Policy recipient-
Fort Wainwright and Fort Huachuca contracting           reporting guidance to require detailed project
personnel effectively validated contractors’            descriptions and that Fort Wainwright
small business status. However, contractor              contracting officials track ANC contract
recipient reporting narrative descriptions for 11       personnel costs in accordance with Federal
projects we reviewed lacked a complete                  Acquisition Regulation requirements.
description of the overall project and expected
outcomes. The narrative descriptions were               Management Comments and
incomplete because initial Office of                    Our Response
Management and Budget (OMB) and DoD                     We received the formal comments from the
guidance did not require detailed project               Army too late to include in the final report.
descriptions. As a result, the Army received the        However, the comments were consistent with
services it had contracted for in nine completed        informal Army comments previously received.
projects, valued at $9.6 million. However, there        As a result of the comments we redirected
is no assurance that contractor-reported data           Recommendations A and B to the Executive
provided transparency to the public on how              Director, Army Contracting Command.
Recovery Act funds were spent.                          Therefore, we request that the Army provide
Fort Wainwright contracting officials did not           comments in response to this report by
ensure that Alaska Native Corporation (ANC)             February 29, 2012. Please see the
contractors performed at least 15 percent of the        recommendations table on the back of this page.
cost of the contract with its own employees for
construction contracts and 50 percent for service
                                                    i
Recommendations Table

        Management                Recommendations    No Additional Comments
                                 Requiring Comment         Required
Executive Director, Army              A and B
Contracting Command

Please provide comments by February 29, 2012.




                                          ii
Table of Contents

Introduction

      Objective                                                             1
      Recovery Act Background                                               1
      Review of Internal Controls                                           3

Finding A. Fort Wainwright and Fort Huachuca Contractor Performance
Controls Were Generally Effective                                           5

      Recovery Act Recipient-Reporting Guidance                             5
      Fort Wainwright and Fort Huachuca Personnel Properly Managed
       Contractor Performance                                               6
      Small Business Contracting Representations and Certifications         8
      Some Project Tracking and Reporting Controls Were Adequate            8
      Narrative Recipient-Reporting Controls Could Have Been Improved       9
      Recommendation                                                       11

Finding B. Fort Wainwright Could Have Improved Alaska Native
Corporation Contract Oversight                                             12

      Guidance on Amount of ANC Prime Contractor Work                      12
      Contracting Officials Did Not Track ANC Subcontracting Percentages   12
      Recommendation                                                       13

Appendices

      A. Scope and Methodology                                             14
            Use of Computer-Processed Data                                 15
            Use of Technical Assistance                                    15
            Prior Coverage                                                 15
      B. Recovery Act Criteria and Guidance                                16
      C. Recovery Act Projects Reviewed at Fort Wainwright                 18
      D. Recovery Act Projects Reviewed at Fort Huachuca                   19
Introduction
Objective
The primary objective of this audit was to determine whether DoD and its Components
are implementing Public Law 111-5, “The American Recovery and Reinvestment Act of
2009,” (Recovery Act). Specifically, we evaluated the effectiveness of Government
controls at Fort Wainwright and Fort Huachuca over contractor performance and
reporting on selected projects, including contracts awarded to qualified small businesses.
See Appendix A for a discussion of our scope and methodology as well as the prior audit
coverage.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009.

       The purposes of this Act include the following:
           (1) To preserve and create jobs and promote economic recovery.
           (2) To assist those most impacted by the recession.
           (3) To provide investments needed to increase economic efficiency by
               spurring technological advances in science and health.
           (4) To invest in transportation, environmental protection, and other
               infrastructure that will provide long–term economic benefits.
           (5) To stabilize State and local government budgets, in order to minimize
               and avoid reductions in essential services and counterproductive state
               and local tax increases.
               .        .       .        .        .       .        .
         The heads of Federal departments and agencies shall manage and expend the
         funds made available in this Act so as to achieve the purposes specified …
         including commencing expenditures and activities as quickly as possible
         consistent with prudent management.


Office of Management and Budget, Federal Acquisition
Regulation, and DoD Recovery Act Guidance
Criteria for planning and implementing the Recovery Act changed during 2009 through
2011 as the Office of Management and Budget (OMB) issued 11 memoranda and
1 bulletin to address the implementation of the Recovery Act. In addition, the Federal
Acquisition Regulation (FAR), DoD, and its Components issued accompanying
implementation guidance. See Appendix B for a list of Federal Government-level
Recovery Act criteria and guidance. OMB, FAR, and DoD guidance related to recipient
reporting are also discussed in Finding B.




                                                 1
DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DoD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization (FSRM); 1 Homeowners Assistance; Military
Construction; Near Term Energy-Efficient Technologies; and U.S. Army Corps of
Engineers (USACE) Civil Works. The Recovery Act divides the approximately
$12 billion among 32 DoD and USACE line items of appropriation. The values of the six
Recovery Act programs are shown in Table 1.
     Table 1. DoD Agency-Wide and Program-Specific Recovery Act Programs
                            Program                          Amount
                                                           (in millions)
    Energy Conservation Investment                              $120
    Facilities Sustainment, Restoration, and Modernization     4,260*
    Homeowners Assistance                                        555
    Military Construction                                      2,185
    Near Term Energy-Efficient Technologies                      300
    U.S. Army Corps of Engineers Civil Works                   4,600
       Total                                                $12,020*
*On August 10, 2010, Public Law 111-226, Title III, “Rescissions,” rescinded $260.5 million of funds from
DoD Operations and Maintenance Accounts supporting the Recovery Act. This reduced the DoD Recovery
Act FSRM amounts to approximately $4 billion, and total DoD agency-wide and program-specific
Recovery Act funding to approximately $11.76 billion.

Recovery Act Projects at Fort Wainwright
Fort Wainwright is a military base near Fairbanks, Alaska. Its missions are to deploy
combat-ready forces to support joint military operations worldwide and serve as the Joint
Force Land Component Command to support Joint Task Force Alaska. Fort Wainwright
had 37 Army FSRM Small Business Recovery Act projects, valued at $43.6 million.
Two Alaska Native Corporation (ANC) prime contractors acting in an 8(a)
(Disadvantaged Business Enterprise Program) capacity performed the projects.

We reviewed six FSRM projects, valued at $9.8 million. All six of the Fort Wainwright
Recovery contract actions that we reviewed were under two noncompetitive
indefinite-delivery, indefinite-quantity contracts to two ANCs. Appendix C shows details
of each Fort Wainwright project we reviewed. At the time of our review, four projects,
valued at approximately $4.6 million, were completed and accepted by the Government.
As of August 26, 2011, two of the projects were still in process: a $1,674,983 project to


1
  The DoD FSRM program helps to ensure that Department facilities are maintained; meet national security
standards; and provide, operate, and sustain suitable housing, medical, and base facilities for warfighters
and their families in a cost-effective manner.




                                                    2
repair base administrative offices and a $3,528,540 project to repair and upgrade heating
and air-conditioning at the base Welcome Center. The four completed projects
comprised:

    •   repairing and renovating the interior of an on-base warehouse ($2,170,614);

    •   repairing barracks ($632,364);

    •   repairing and renovating the visual aesthetics, including electrical/lighting, in
        building 3717 ($873,187); and

    •   replacing the traffic control facility at the intersection of Meridian and
        Montgomery Roads ($958,876).

Recovery Act Projects at Fort Huachuca
The U.S. Army Garrison, Fort Huachuca, Arizona, provides resources, services, and
infrastructure to support expeditionary operations for the Army. Fort Huachuca had
33 Army FSRM Recovery Act projects, valued at $18.5 million. Of those 33 projects,
17 were Small Business 8(a) Recovery Act projects.

We reviewed five FSRM projects, valued at $5 million. Three of the five Fort Huachuca
contract actions that we reviewed were noncompetitive contracts awarded to three small
businesses. Appendix D shows details of each Fort Huachuca project we reviewed. At
the time of our review, all five projects had been completed and accepted by the
Government. The projects comprised:

    •   reconstructing Squire Avenue ($1,180,265);

    •   replacing evaporative cooling with air-conditioning in building 70525
        ($1,874,065);

    •   replacing inefficient light fixtures in buildings 50010, 55328, 55330, and 74914
        ($237,948);

    •   repairing H Avenue drainage ($1,333,977); and

    •   repairing the roof at Davis Hall ($384,175).

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the administration of ANC contracts at Fort Wainwright and recipient
reporting of Recovery Act projects at Fort Wainwright and Fort Huachuca. Specifically,
Fort Wainwright and Fort Huachuca 2009 and 2010 quarterly recipient-reporting


                                              3
narrative descriptions were incomplete regarding the overall projects and expected
outcomes. In addition, Fort Wainwright contracting officials did not ensure that ANC
prime contractors incurred at least 15 percent of the costs of the contract with its own
employees for construction contracts and 50 percent for service contracts, as required by
FAR 52.219-14. We will provide a copy of the report to the senior official responsible
for internal controls at Fort Wainwright and at Fort Huachuca.




                                            4
Finding A. Fort Wainwright and Fort
Huachuca Contractor Performance Controls
Were Generally Effective
Fort Wainwright and Fort Huachuca controls over contractor performance were generally
effective and properly executed for the 11 selected FSRM projects. 2 In addition,
Fort Wainwright and Fort Huachuca contracting personnel effectively validated
contractors’ small business status. However, contractor recipient- reporting narrative
descriptions for 11 projects we reviewed lacked a complete description of the overall
project and expected outcomes. The lack of detailed descriptions occurred because initial
OMB and DoD guidance did not require detailed project descriptions. As a result, the
Army received the services it had contracted for in nine completed projects, valued at
$9.6 million. However, there is no assurance that contractor-reported data provided
transparency to the public on how Recovery Act funds were spent.

Recovery Act Recipient-Reporting Guidance
FAR Subpart 4.15, “American Recovery and Reinvestment Act-Reporting
Requirements,” requires contractors receiving Recovery Act funds to report on the use of
those funds quarterly. Section 1512 of the Recovery Act also requires recipients to
provide quarterly data on the use of Recovery Act funding. In addition, FAR Clause
52.204-11, “American Recovery and Reinvestment Act-Reporting Requirements,”
outlines the contractors' reporting requirements, indicating that they must report by the
10th day after the end of the quarter (October 10, January 10, April 10, and July 10) and
the specific information they must report.

Initial OMB and DoD Guidance
On September 30, 2009, Office of Federal Procurement Policy Memorandum, “Interim
Guidance on Reviewing Contractor Reports on the Use of Recovery Act Funds in
Accordance With FAR Clause 52.204-11,” described the reporting process and the
requirements for agencies to review reports for consistency with award information,
significant errors, and material omissions in reporting. However, the interim guidance
did not provide detailed guidance on the extent and content of narrative descriptions
submitted by recipients.

On December 16, 2009, a DoD memorandum, “Guidance on Reviewing Contractor
Reports Required by the American Recovery and Reinvestment Act of 2009,” provided
additional guidance for contracting officials when reviewing quarterly recipient reports.




2
 Two of the 11 projects, valued at $5 million, were ongoing as of August 26, 2011; both were at Fort
Wainwright.


                                                    5
Revised Presidential, OMB, and DoD Guidance
An April 6, 2010, Presidential memorandum, “Combating Noncompliance with Recovery
Act Reporting Requirements,” mandated aggressive action by Federal agencies in
addressing recipient-reporting noncompliance. OMB Memorandum M-10-34 provided
additional information to Federal agencies and recipients regarding detailed reporting
procedures, including the need to improve narrative descriptions in recipient reporting in
www.FederalReporting.gov. On April 20, 2011, the Director, Defense Procurement and
Acquisition Policy (DPAP) issued a memorandum, “Quality Reviews of Contract, Grant
and Cooperative Agreement Recipient Reports Required by the American Reinvestment
and Recovery Act,” to provide further guidance.

Fort Wainwright and Fort Huachuca Personnel Properly
Managed Contractor Performance
Generally, Fort Wainwright and Fort Huachuca personnel properly executed Recovery
Act projects, including contractor performance management and contract funding
administration. Contracting officials designated contracting officer’s representatives
(CORs) from the Fort Wainwright and Fort Huachuca Departments of Public Works to
monitor, evaluate, and document contractors’ performance. CORs used various quality
assurance documents to evaluate the quality and timeliness of work performed, including
quality assurance plans, daily surveillance plans, and contractor daily quality control
reports. For completed projects, CORs conducted final inspections and noted
deficiencies that needed correction before final acceptance. We also verified through
inspection the status of completed and ongoing projects at Fort Wainwright and Fort
Huachuca. We noted no contractor-induced delays or significant quality control issues.

In addition, Fort Wainwright and Fort Huachuca personnel effectively administered
contract funding. Our review of 37 Fort Wainwright invoices, valued at approximately
$5 million, and 28 Fort Huachuca invoices, valued at approximately $5 million, showed
that payments were consistent with work performed and that CORs reviewed invoices to
ensure that payments were commensurate with work performed. 3 This validation and
verification of work completed helped ensure that contractors were paid appropriately
under the terms of the FSRM contracts.

Projects at Fort Wainwright
Fort Wainwright contractor performance controls were sufficient to ensure that the Army
received the services it contracted for. CORs from the Fort Wainwright Department of
Public Works used daily quality control reports to evaluate contractor performance
regarding labor hours, equipment used, onsite supervision, and inspections and tests
performed to evaluate quality of work. In addition, CORs reviewed invoices and
performed final inspections for completed projects. We visually inspected all six projects
and obtained feedback from Fort Wainwright Public Works personnel on the quality and


3
    We reviewed all available invoices connected to the selected projects during our onsite reviews.


                                                       6
timeliness of contractor performance. Similar Public Works oversight was performed on
the two ongoing projects. Public Works personnel were satisfied with contractor
performance and the project outcomes. We concluded that contractor performance on the
projects complied with all contract requirements. As Table 2 shows, contractors
completed the four projects within the scheduled time frame and allotted Recovery Act
costs.

                    Table 2. Fort Wainwright Project Outcomes
 Project    Government Received         Project           Project         Government
  No.          and Accepted            Completed        Completed          Oversight
             Contracted FSRM            on Time           Within           Controls
                  Services                             Recovery Act
                                                      Allocated Costs

 21942                √                 Ongoing          Ongoing               √

 22119                √                    √                 √                 √

 32320                √                    √                 √                 √

 32329                √                    √                 √                 √

 35615                √                    √                 √                 √

 38278                √                 Ongoing          Ongoing               √


Projects at Fort Huachuca
Fort Huachuca contractor performance controls were sufficient for all five projects to
ensure that the Government received the FSRM services it contracted for. CORs from
the Fort Huachuca Department of Public Works used daily quality control reports to
evaluate contractor performance regarding labor hours, equipment used, onsite
supervision, and inspections and test performed to evaluate quality of work. In addition,
CORs reviewed invoices and performed final inspection of completed projects. We
visually inspected the five projects and obtained feedback from Public Works personnel
on the quality and timeliness of the contractors’ performance. Public Works personnel
were satisfied with contractor performance and the project outcomes. We concluded that
contractor performance on the projects complied with contract requirements. As Table 3
shows, contractors delivered all five projects within approved timelines and costs.




                                            7
                       Table 3. Fort Huachuca Project Outcomes
 Project     Government Received         Project            Project          Government
  No.           and Accepted            Completed         Completed           Oversight
              Contracted FSRM            on Time            Within            Controls
                   Services                              Recovery Act
                                                        Allocated Costs

 25204                 √                     √                  √                  √

 25206                 √                     √                  √                  √

 35756                 √                     √                  √                  √

 38785                 √                     √                  √                  √

 38803                 √                     √                  √                  √



Small Business Contracting Representations and
Certifications
Fort Wainwright and Fort Huachuca contracting personnel effectively validated
contractors’ small business status. Small businesses self-certify with the Small Business
Administration (SBA), Central Contractor Registration, and Online Representations and
Certifications Application (ORCA) systems. The FAR directs contractors to make a
good faith representation of their small business status, and contracting officers then
accept that representation unless they have reason to believe otherwise. To qualify as a
small business, the company must meet the SBA-established size standards for the North
American Industry Classification System (NAICS) for which they plan to claim small
business status. Small businesses must also update their status every year. ANCs are
permitted to participate under SBA’s 8(a) business program and are eligible to receive
sole-source contracts for any dollar amount.

Fort Wainwright and Fort Huachuca contracting officials validated each contractor’s
small business status by obtaining a copy of the ORCA certification. We confirmed the
contractors’ small business status by verifying their certification through their postings to
the Central Contractor Registration database and ORCA Web site.


Some Project Tracking and Reporting Controls Were
Adequate
Fort Wainwright and Fort Huachuca generally complied with Recovery Act reporting
requirements. Specifically, Fort Wainwright and Fort Huachuca procedures were



                                              8
generally effective to ensure that contractors for all 11 projects reported recipient
information required by the Recovery Act.

According to Fort Wainwright and Fort Huachuca contracting personnel, they provided
contractors written notice of the reporting requirement and reminded contractors of the
applicable suspense date before each quarterly reporting period. Fort Wainwright and
Fort Huachuca contracting personnel also reviewed contractor reports and notified
contractors of discrepancies needing correction. In addition, contracting personnel
monitored the reporting process. Our review of 2009 and 2010 recipient (contractor)-
reported information showed the information was accurate with the information
contained in the contract files and supported Recovery Act requirements regarding the
total dollar value for the project, project status, general purpose of the award, and
location of work being performed.

Narrative Recipient-Reporting Controls Could Have
Been Improved
Fort Wainwright and Fort Huachuca 2009 and 2010 quarterly recipient-reporting
narrative descriptions were incomplete regarding the overall projects and expected
outcomes.

Fort Wainwright
Contractor narrative descriptions for the six Fort Wainwright projects reviewed lacked a
complete description of the overall project and expected outcomes. For example, the
narrative description for project 32329 in www.recovery.gov for the quarter ending
September 30, 2010, stated only, “25ID 1BCT Battalion OPS BLDG 3717 Repair
Finishing, HVAC, and ELEC.” In addition, the quarterly activities description stated
only, “Repair Barracks.” Contractors could have drawn a fuller description from the
project’s statement of work, available to both the contractor and the Government in
contract W912CZ-07-D-0007-0082, which stated in part:

               This project is intended to renovate the existing offices and finishes in
               the building. The objective of this project is to upgrade and improve
               the visual aesthetics of portions of Building 3717. Slight upgrades will
               also include electrical/lighting replacement and reconfiguring existing
               electrical layouts to better suit occupants and aesthetic issues. Install
               rubber tile flooring in specified areas, flooring shall be resilient and
               meet ADA requirements. Install cherry wood style luxury vinyl tile
               (LVT) in specified areas, flooring shall be resilient and non-slip.
               Eliminate the installation of vinyl composition tile (VCT) in specified
               areas. Eliminate work in room 135 and arms room and eliminate
               exterior painting. For the HVAC system, replace existing pneumatic
               controls with electronic controls and thermostats. To include but not
               limited to installation of zone control valves, controls for existing
               heating coils for air handlers, thermostats, dampers, controls for
               existing heat exchanger, wiring, conduit, and piping.




                                                  9
Fort Huachuca
Contractor narrative descriptions for the five projects we reviewed lacked a complete
description of the overall project and expected outcomes. For example, the project 25206
description reported in www.recovery.gov for the quarter ending March 31, 2010, stated
only “REPLACE EVAP COOLING WITH A/C TMAC BUILDING 70525, MWR
PROJECT NO 25206.” However, more detailed descriptions of work to be performed
were available to both the Government and the contractor in the statement of work
included in contract W9124A-09-C-0012:

               To replace the evaporating cooling system in building 70525 for a new
               air conditioning unit. Remove and replace with new the existing 120V
               power and lighting circuits, conduit, wire, whips, and J-boxes in the
               existing above ceiling grid on the Main Dining (Rm.132), Bar No. 2
               (Rm.131), Ballroom (Rm.130), Storage (Rm.129), Boots and Saddle
               Senior Lounge (Rm.122), Cashier Office (Rm.121), Barber (Rm.120),
               Lobby (Rm.118), Main Office (Rm.117), Office Comp (Rm.115),
               Locker Room (Rm.114A), Locker Lounge (Rm.114), Liquid Room
               (Rm.114B), Bar (Rm.113), Fox Hole Lounge l East (Rm.112), and Fox
               Hole Lounge/West (Rm.106). Replace several light switches in the
               above rooms. Replace missing cover on lighting control box in
               Ballroom ceiling. Relocate the Thunder Mountain sign that is on the
               East side of the building to the center of the new canopy facade on
               adjacent to its current location.

Reason for Vague Narrative Descriptions
Vague narrative descriptions occurred because initial OMB and DoD guidance did not
require detailed project descriptions. We apprised contracting personnel of the revised
OMB reporting requirement included in OMB Memorandum M-10-34, as it applied to
the reporting quarters that ended on September 30, 2010, and December 31, 2010.
Because the narrative descriptions were incomplete and vague, the reported data for the
11 projects did not provide sufficient details to provide transparency to the public on how
Recovery Act funds were spent. On April 20, 2011, the Director, DPAP, issued
supplementary guidance to assist contracting offices in determining the sufficiency of
contractor-reported information. U.S. Army Garrison Commanders at Fort Wainwright
and Fort Huachuca should fully implement OMB Memorandum M-10-34 and the
associated DPAP supplementary guidance for any remaining Recovery Act projects with
active recipient reporting. If implemented, the OMB and DPAP guidance will correct the
recipient reporting internal control weakness.




                                                10
Recommendation
Redirected Recommendation
As a result of informal management comments from the Army Materiel Command, we
redirected Recommendation A from the Commander, U.S. Army Garrison, Fort
Wainwright, and the Commander, U.S Army Garrison, Fort Huachuca, to the Executive
Director, Army Contracting Command. Subsequently, we received written comments
from the Commander, U.S. Army Installation Management Command too late to include
them in the final report. Those comments were consistent with the informal comments
previously received.

A. We recommend that the Executive Director, Army Contracting Command,
direct contracting officials at Fort Wainwright and Fort Huachuca to fully
implement Office of Management and Budget Memorandum M-10-34 and the
associated April 20, 2011, Defense Procurement and Acquisition Policy recipient-
reporting guidance to require detailed project descriptions.

Management Comments Required
We request that Army provide comments in response to the final report by
February 29, 2012.




                                          11
Finding B. Fort Wainwright Could Have
Improved Alaska Native Corporation
Contract Oversight
Fort Wainwright contracting officials did not ensure that ANC contractors performed at
least 15 percent of the cost of the contract with its own employees for construction
contracts and 50 percent for service contracts, as required by FAR Clause 52.219-14,
“Limitations on Subcontracting.” Specifically, contracting officials could not determine
whether prime contractors incurred the requisite percentage of personnel cost because
they were unaware of the requirement to do so. As a result, there is no assurance that
Fort Wainwright ANCs passed the benefits of their contracts to an Alaska Native
workforce.

Guidance on Amount of ANC Prime Contractor Work
Congress established ANCs in 1971 to settle land and financial claims made by
Aboriginal Alaskans and to spur regional economic development. Under the SBA’s 8(a)
Program, ANCs are eligible to receive sole-source contracts for any dollar amount. (All
other 8[a] contractors are limited to awards not exceeding $6.5 million for manufacturing
contracts and $4 million for all other contracts.) FAR clause 52.219-14 requires that 8(a)
prime contractors perform at least 15 percent of the cost of the contract, not including the
cost of materials, with its own employees for construction contracts and 50 percent of the
cost of the contract for service contracts.

Contracting Officials Did Not Track ANC Subcontracting
Percentages
Although both Fort Wainwright ANC prime contracts contained FAR clause 52.219-14,
Fort Wainwright contracting personnel did not track the percentage of work
subcontracted by ANC small business prime contractors.

Contracting officials did not track subcontracting because they were unaware of the
requirement to track the percentage of work performed by ANCs. The contracting
officials noted that no ANC work at Fort Wainwright was tracked in this manner. After
we notified Fort Wainwright contracting officials of the FAR requirement, the officials
stated that they were attempting to implement procedures with their ANC contractors to
track personnel costs for construction and service work performed by both ANC prime
contractors and ANC subcontractors, as required by FAR clause 52.219-14. The
contracting officials noted that there was not a specific reporting format available to track
the percentage of personnel costs for construction or service work conducted by ANC
prime contractors and that each contractor tracked the requirement differently.




                                             12
Recommendation
Redirected Recommendation
As a result of informal management comments from the Army Materiel Command, we
redirected Recommendation B from the Commander, U.S. Army Garrison, Fort
Wainwright, to the Executive Director, Army Contracting Command. Subsequently, we
received written comments from the Commander, U.S. Army Installation Management
Command too late to include them in the final report. Those comments were consistent
with the informal comments previously received.

B. We recommend that the Executive Director, Army Contracting Command, issue
guidance to Fort Wainwright contracting officials to ensure that Alaska Native
Corporation prime contractor services incur at least 15 percent of personnel costs
for construction contracts and 50 percent of personnel costs for service contracts, as
required by Federal Acquisition Regulation Clause 52.219-14, “Limitations on
Subcontracting.”

Management Comments Required
We request that Army provide comments in response to the final report by
February 29, 2012.




                                          13
Appendix A. Scope and Methodology
We conducted this performance audit from January 2011 through November 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We selected five Recovery Act FSRM projects at Fort Huachuca, valued at $5 million,
and six Recovery Act FSRM projects at Fort Wainwright, valued at $9.8 million, to
determine whether Army efforts complied with Recovery Act requirements, Office of
Management and Budget guidance, the Federal Acquisition Regulation, and DoD
implementing guidance. We interviewed Army personnel at Fort Wainwright and
Fort Huachuca contracting offices and Departments of Public Works. For each small
business award, we validated that contracting officials reviewed the awardee’s small
business status by reviewing the ORCA certifications contained in the contract files. We
also verified that the contractors registered in ORCA, self-certifying their small business
status. In addition, we validated contractor-reported North American Industry
Classification System (NAICS) size standards by comparing information contained in the
Federal Procurement Data System (FPDS).

Recipient Reporting
We reviewed selected recipient reports filed by contractors on www.federalreporting.gov.
We verified contractor-reporting elements in www.recovery.gov for 2009 and 2010 and
compared the information with contract files and the FPDS.

Project Execution
We determined whether the quality assurance surveillance plans for the selected projects
specified work requiring surveillance and the method of surveillance. We ensured
contractor(s) met agreed-to contractor schedules and identified and addressed
nonconformance. In addition, we inspected all 11 ongoing and completed Recovery Act
projects.

Small Business Oversight
We determined that contracting personnel properly validated contractor 8(a) status by
identifying small business 8(a) actions at each site from the FPDS. We reviewed contract
files to determine whether contracting officials reviewed each small business status by
obtaining reports from the ORCA Web site and the NAICS. We also held discussions
with contracting officials to determine their procedures for validating contractor 8(a)
business status. In addition, we held discussions with contracting officials at Fort
Wainwright to determine their procedures for validating contractor Alaska Native
Corporation’s special 8(a) provisions.




                                            14
Use of Computer-Processed Data
We used computer-processed data to perform this audit. Specifically, we used project
data posted on the Recovery Act Web site (www.recovery.gov) in meeting our audit
objectives. We tested the accuracy of the data by comparing the project data reported on
the Recovery Act Web site with documents in the contract file. Our audit focused on the
reporting of contract actions on specific Army projects. From these procedures, we
concluded that the DoD data were sufficiently reliable for our audit purposes.

Use of Technical Assistance
We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
used provided a basis for logical coverage not only of Recovery Act dollars being
expended but also of types of projects and types of locations across the Military Services,
Defense agencies, State National Guard units, and public works projects managed by
USACE.

Prior Coverage
The Government Accountability Office (GAO), the DoD Inspector General (DoD IG),
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.

Furthermore, GAO and the DoD IG have issued three reports specifically discussing
Recovery Act issues pertaining to this report. Unrestricted GAO reports can be accessed
at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-10-581, “Increasing the Public’s Understanding of What Funds
are Being Spent on and What Outcomes Are Expected,” May 27, 2010

DOD IG
DoD IG Report No. D-2011-052, “American Recovery and Reinvestment Act–DoD Data
Quality Review Processes for the Period Ending December 31, 2009, Were Not Fully
Implemented,” March 23, 2011

DoD IG Report No. D-2011-048, “American Recovery and Reinvestment Act Projects–
‘Facility Energy Improvements’ and ‘Wind Turbine and Photovoltaic Panels’ at Fort
Wainwright, Alaska,” March 7, 2011




                                            15
Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents (notes appear at
the end of the list):

   •   U.S. House of Representatives Conference Committee Report 111–16, “Making
       Supplemental Appropriations for Job Preservation and Creation, Infrastructure
       Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
       State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
       2009, and for Other Purposes,” February 12, 2009

   •   Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
       February 17, 2009

   •   OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
       Recovery and Reinvestment Act of 2009,” February 18, 2009

   •   OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
       Reinvestment Act of 2009 Appropriations,” February 25, 2009

   •   White House Memorandum, “Government Contracting,” March 4, 2009

   •   White House Memorandum, “Ensuring Responsible Spending of Recovery Act
       Funds,” March 20, 2009

   •   OMB Memorandum M-09-15, “Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009,” April 3, 20091

   •   OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
       With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   •   OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
       Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   •   OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
       of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
       June 22, 20092

   •   OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
       with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   •   OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
       September 11, 2009



                                           16
    •    OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
         Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
         Clause 52.204-11,” September 30, 2009

    •    OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
         and Reinvestment Act- Data Quality, Non–Reporting Recipients, Reporting of
         Job Estimates,” December 18, 2009

    •    OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
         and Reinvestment Act,” March 22, 2010

    •    Presidential Memorandum “Combating Noncompliance with Recovery Act
         Reporting Requirements,” April 6, 2010

    •    OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
         Compliance under the American Recovery and Reinvestment Act,” May 4, 2010

    •    OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
                                                   2
         and Reinvestment Act,” September 24, 2010




1
 Document provides Government–wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government–wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     17
Appendix C. Recovery Act Projects
Reviewed at Fort Wainwright
Project             Project               Delivery           Award          Award          Project
  No.              Description             Order              Date          Amount         Status

     21942       Repair                W912CZ-08-D-        Dec. 29, 2009    $1,674,983       < 50%
                 administrative        0002-0124                                            complete
                 offices                                                                      as of
                                                                                         Aug. 26, 2011
     22119       Renovate and          W912CZ-07-D-        Sept. 30, 2009    2,170,614     Completed
                 repair interior of    0007-0083                                         July 30, 20101
                 warehouse

     32320       Repair barracks       W912CZ-08-D-        May 29, 2009        632,364    Completed
                                       0002-0055                                         May 4, 20101

     32329       Renovate and          W912CZ-07-D-        Sept. 29, 2009      873,187     Completed
                 repair building       0007-0082                                         June 17, 20101
                 3717

     35615       Replace traffic       W912CZ-07-D-        Sept. 10, 2009      958,876    Completed
                 control facility at   0007-0076                                         Aug. 11, 20101
                 Meridian and
                 Montgomery
                 Roads
                 intersection

     38278       Repair and            W912CZ-08-D-        Sept. 30, 2009    3,528,540      > 50%
                 upgrade HVAC2         0002-0116                                           complete
                 at the Welcome                                                              as of
                 Center                                                                  Aug. 26, 2011

     Total                                                                  $9,838,564
1
    Final inspection date.
2
    Heating, ventilation, and air-conditioning.




                                                      18
Appendix D. Recovery Act Projects
Reviewed at Fort Huachuca
Project            Project            Contract             Award          Award          Project
 No.              Description        No./Delivery           Date          Amount         Status1
                                       Order
     25204       Reconstruct         W9124A-05-D-        May 15, 2009     $1,180,265    Completed
                 Squire Avenue       0004-00812                                        May 31, 2010
     25206       Replace             W9124A-09-C-        July 15, 2009     1,874,065    Completed
                 evaporative         00123                                             Feb. 8, 2010
                 cooling with air-
                 conditioning (8a)
     35756       Retrofit all        W9124A-09-D-        Dec. 23, 2009       237,948    Completed
                 existing T-12       0003-00012                                        Aug. 3, 2010
                 lights to T-8
     38785       Repair H            W9124A-09-C-        June 26, 2009     1,333,977    Completed
                 Avenue drainage     00093                                             Feb. 1, 2010
                 (8a)
     38803       Repair Davis        W9124A-09-C-        Sept. 30, 2009      384,175    Completed
                 Hall roof (8a)      00523                                             Jan. 11, 2010


     Total                                                                $5,010,430
1
    Final inspection date.
2
    Delivery order.
3
    Contract number.




                                                    19
THIS PAGE INTENTIONALLY LEFT BLANK
THIS PAGE INTENTIONALLY LEFT BLANK
